             Audit Report



Dually Entitled Beneficiaries Who
  Are Subject to the Windfall
   Elimination Provision and
  Government Pension Offset




       A-09-12-11210| January 2013
MEMORANDUM


Date:      January 31, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Dually Entitled Beneficiaries Who Are Subject to the Windfall Elimination Provision and
           Government Pension Offset (A-09-12-11210)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to ensure it properly imposed
           the Windfall Elimination Provision and Government Pension Offset for dually entitled
           beneficiaries.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Summary of Dually Entitled Beneficiaries Who Are Subject to
the Windfall Elimination Provision and Government Pension
Offset
A-09-12-11210
January 2013                                                                                   Office of Audit

Objective                     Our Findings

To determine whether the      SSA needs to improve its controls to ensure it properly imposes WEP and GPO
Social Security               for dually entitled beneficiaries. We estimate that SSA
Administration (SSA) had
adequate controls to          •   overpaid $19.2 million in retirement benefits to 2,046 beneficiaries because
ensure it properly                WEP was not properly applied,
imposed the Windfall
Elimination Provision         •   overpaid $14.6 million in spousal benefits to 1,662 beneficiaries because
(WEP) and Government              GPO was not properly imposed, and
Pension Offset (GPO) for
dually entitled               •   will overpay $12.7 million annually to 3,708 beneficiaries unless it takes
beneficiaries.                    action to identify and correct these payment errors.

Background                    We also estimate that 3,961 beneficiaries were exempt from WEP and
                              3,148 were exempt from GPO, but SSA employees did not record the exemption
The Social Security Act       reason on the Master Beneficiary Record, as required.
includes two provisions
that reduce Social            Finally, SSA did not take action to impose WEP and GPO on a population of
Security monthly benefits     beneficiaries identified in our prior audit. Consequently, we estimate that SSA
paid to individuals who       overpaid these beneficiaries an additional $181.6 million.
receive a pension based
                              Our Recommendations
on Federal, State, or local
government employment         We recommend that SSA:
not covered by Social
Security. WEP uses a          1. Establish overpayments or record a WEP or GPO exemption for the
modified benefit formula         104 beneficiaries identified by our audit.
to eliminate “windfall”
from a wage earner’s          2. Determine whether there is a cost-effective method to identify and correct the
monthly Social Security          population of overpaid dually entitled beneficiaries in current pay whose
retirement benefit. GPO          benefits should be reduced for WEP or GPO.
reduces monthly Social
Security benefits for         3. Identify and, if appropriate, implement controls to prevent and resolve
spouses, divorced                pension discrepancies recorded on the Master Beneficiary Records of dually
spouses, and widows who          entitled beneficiaries.
receive a pension based
on their employment for a     4. Remind employees to review both the WEP and GPO provisions when they
Federal, State, or local         receive pension information for dually entitled beneficiaries.
government not covered
by Social Security.           SSA agreed with all our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     WEP Payment Errors .................................................................................................................3
           Pension Information on the Spousal MBR ..........................................................................4
           WEP Exemptions Not Recorded on the MBR .....................................................................4
     GPO Payment Errors..................................................................................................................4
           Pension Information on the Retirement MBR .....................................................................6
           GPO Exemptions Not Recorded on the MBR .....................................................................6
     SSA Actions in Response to Our Prior Audit ............................................................................6
Conclusion and Recommendations ..................................................................................................7
Agency Comments ...........................................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)
ABBREVIATIONS
GPO                 Government Pension Offset

ICD                 Integrated Client Data

MBR                 Master Beneficiary Record

MSOM                Modernized Systems Operations Manual

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

SSA                 Social Security Administration

WEP                 Windfall Elimination Provision




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to ensure it properly imposed the Windfall Elimination Provision (WEP) and
Government Pension Offset (GPO) for dually entitled beneficiaries.

BACKGROUND
The Social Security Act includes two provisions that reduce Social Security monthly benefits
paid to individuals who receive a pension based on Federal, State, or local government
employment not covered by Social Security. 1 WEP eliminates “windfall” Social Security
benefits for retired and disabled beneficiaries receiving pensions from employment not covered
by Social Security. Under this provision, a modified benefit formula is required to determine a
wage earner’s monthly Social Security retirement benefit. 2 GPO reduces monthly Social
Security benefits for spouses, divorced spouses, and widows who receive a pension based on
their employment for a Federal, State, or local government not covered by Social Security. 3

The GPO reduction is generally equal to two-thirds of the government pension. 4 Beneficiaries
who are eligible for both retirement benefits based on their own work history and spousal
benefits based on their spouse’s work history are known as dually entitled. Beneficiaries who
are dually entitled to both retirement and spousal benefits can be subject to both WEP and GPO.

To identify beneficiaries who may be subject to WEP and GPO, SSA primarily relies on
applicants to report entitlement to current or future pensions from employment not covered by
Social Security. However, for retired Federal employees, SSA receives monthly pension
notifications from the Office of Personnel Management. 5

In a 2008 audit, 6 we reported that SSA needed to improve controls to ensure it properly imposed
WEP and GPO for dually entitled beneficiaries. We estimated that SSA overpaid


1
 Social Security Act § 215(a)(7)(A), (d)(3), and (f)(9); 42 U.S.C. § 415(a)(7)(A),(d)(3) and (f)(9); and 20 C.F.R. §§
404.213 and 404.243.
2
 Social Security Act § 215(a)(7)(B); 42 U.S.C. § 415(a)(7)(B); 20 C.F.R. § 404.213(c) and (d); and SSA, POMS, RS
00605.360 (February 11, 2009).
3
    Social Security Act § 202(k)(5); 42 U.S.C. § 402(k)(5); and 20 C.F.R. § 404.408a.
4
 Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a(d); SSA, POMS, GN 02608.100
(September 12, 2012).
5
    SSA, POMS, GN 02608.301 (May 13, 1996) and RS 00605.374 (May 6, 1999).
6
 SSA OIG, Dually Entitled Beneficiaries who are Subject to Government Pension Offset and the Windfall
Elimination Provision (A-09-07-27010), September 10, 2008.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                                        1
8,500 beneficiaries $269.8 million because it did not properly apply WEP. We also estimated
that SSA overpaid 8,460 beneficiaries $184.8 million because it did not properly impose GPO.
Finally, we estimated that unless SSA took appropriate action for these populations of
beneficiaries, it would pay about $53.2 million, annually, in WEP and GPO overpayments.

For our current audit, we identified 8,705 dually entitled beneficiaries with GPO imposed on
their spousal benefit and no WEP on their retirement 7 benefit. We also identified 5,830 dually
entitled beneficiaries with WEP imposed on their retirement benefit and no GPO on their spousal
benefit. All these beneficiaries became entitled to benefits or started receiving a pension after
our 2008 audit. From these populations, we selected 2 random samples of 200 beneficiaries for
review.

RESULTS OF REVIEW
SSA needs to improve its controls to ensure it properly imposes WEP and GPO for dually
entitled beneficiaries. Based on our 2 random samples, we estimate that SSA

•   overpaid $19.2 million in retirement benefits to 2,046 beneficiaries because WEP was not
    properly applied,

•   overpaid $14.6 million in spousal benefits to 1,662 beneficiaries because GPO was not
    properly imposed, and

•   will overpay $12.7 million annually to 3,708 beneficiaries unless it takes action to identify
    and correct these payment errors.

We also estimate that 3,961 beneficiaries were exempt from WEP and 3,148 were exempt from
GPO, but SSA employees did not record the exemption reason on the Master Beneficiary Record
(MBR), as required.

We are 90-percent confident the number of beneficiaries

•   overpaid because WEP was not properly applied ranged from 1,627 to 2,515, and the
    overpayments ranged from $14.9 to $23.5 million;

•   overpaid because GPO was not properly imposed ranged from 1,362 to 1,989, and the
    overpayments ranged from $10 to $19.3 million;

•   with WEP exemptions not recorded on the MBR ranged from 3,448 to 4,482; and

•   with GPO exemptions not recorded on the MBR ranged from 2,801 to 3,490.


7
  WEP applies to both retirement and disability benefits. However, we use the term “retirement” generically in this
report to refer to both retirement and disability benefits.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                                      2
Finally, SSA did not take corrective action for the population of overpaid beneficiaries identified
in our 2008 audit. Since our prior audit, we estimate these beneficiaries were overpaid an
additional $181.6 million because SSA had not imposed WEP or GPO. These payment errors
continued because SSA had not implemented controls to detect pension discrepancies recorded
on the MBRs of dually entitled beneficiaries (see Appendix B).

WEP Payment Errors
Of the 200 beneficiaries in our sample who had GPO imposed on their spousal benefit and no
WEP on their retirement benefit, SSA did not properly reduce the retirement benefits of
47 beneficiaries in accordance with WEP. As a result, SSA overpaid these 47 beneficiaries
$441,136. We also found that SSA did not document that a WEP exemption applied for
91 beneficiaries. For the remaining 62 beneficiaries, the WEP determination was correct and
properly documented. The following chart summarizes the results of our review.

                                          Figure 1: WEP Errors


                                            WEP Errors
                         Based on a Random Sample of 200 Beneficiaries


                                                               62 Correctly Paid
                                                                    (31%)
                        91 WEP Exemptions
                           Not Recorded
                             (45.5%)

                                                        47 Overpaid - WEP
                                                           Not Imposed
                                                             (23.5%)




Generally, if SSA imposes GPO on a spousal benefit, WEP will apply to the retirement benefits
for dually entitled beneficiaries. However, under certain conditions, an exemption to WEP may
apply. For example, WEP does not apply to beneficiaries who have at least 30 years of
substantial Social Security earnings 8 or if they were eligible for retirement benefits before 1986. 9




8
 Social Security Act § 215(a)(7)(D), 42 U.S.C. § 415(a)(7)(D); 20 C.F.R. § 404.213(e). For 2007, $18,150 of
covered wages was required to obtain a year of coverage. SSA, POMS, RS 00605.362 (February 17, 2011).
9
    SSA, POMS, RS 00605.360.C.1 (February 11, 2009), SSA, MSOM, ICD 004.002 (June 27, 2002).




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                              3
If WEP does not apply, SSA employees must record the exemption on the MBR. 10 Additionally,
employees should retain evidence to support the WEP determination, such as an award letter
from the paying agency. 11

Pension Information on the Spousal MBR
For all 47 beneficiaries who should have had WEP imposed, SSA had obtained and recorded the
pension information on their spousal MBRs. This consisted of 45 beneficiaries who had been
receiving retirement benefits, but SSA did not become aware of the pension until they filed for
spousal benefits, and 2 beneficiaries who did not provide the pension information until after they
began receiving spousal benefits. While SSA properly reduced the spousal benefits according to
the GPO provision, it did not impose WEP on the retirement benefit. Finally, we found that SSA
did not prevent or detect these overpayments because it had not implemented controls to identify
pension discrepancies recorded on retirement and spousal beneficiaries’ MBRs.

For example, a beneficiary filed for both retirement and spousal benefits in June 2007. At that
time, the beneficiary disclosed that since August 2001, she had been receiving a $1,400 monthly
pension based on employment not covered by Social Security. SSA imposed GPO on her
spousal benefits but erroneously paid the full retirement benefit of $506. However, SSA should
have only paid the beneficiary a $224 monthly retirement benefit. Consequently, SSA overpaid
the beneficiary $14,169 from June 2007 through August 2012.

WEP Exemptions Not Recorded on the MBR
We found that 91 beneficiaries were exempt from WEP. However, SSA employees did not
record the exemption reason on the MBR, as required. 12 For example, a beneficiary was entitled
to retirement benefits beginning in February 1999. He became entitled to spousal benefits in
June 2008, which were reduced because of GPO. Since the beneficiary was eligible for his
non-covered pension before 1985, he was exempt from WEP. However, SSA did not record the
exemption on the MBR.

GPO Payment Errors
Of the 200 beneficiaries in our sample with WEP applied to their retirement benefit and no GPO
on their spousal benefits, SSA did not impose GPO for 57 as required by the GPO provisions of
the Social Security Act. 13 As a result, SSA overpaid these 57 beneficiaries $501,592. We also



10
     SSA, POMS, RS 00605.374.B.1 (May 6, 1999).
11
     SSA, POMS, GN 00301.285.C (July 22, 2010).
12
     SSA, POMS, RS 00605.374.A (May 6, 1999); SSA, MSOM, ICD 004.002 (June 27, 2002).
13
     Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                  4
found that SSA did not document that a GPO exemption applied for 108 beneficiaries. For the
remaining 35 beneficiaries the GPO determination was correct and properly documented. We
summarize the results of our review below.

                                            Figure 2: GPO Errors


                                                GPO Errors
                             Based on a Random Sample of 200 Beneficiaries

                                                             35 Correctly
                                                             Paid (17.5%)

                             108 GPO
                          Exemptions Not                             57 Overpaid - GPO
                          Recorded (54%)                            Not Imposed (28.5%)




Generally, if SSA applies WEP to a retirement benefit, GPO will be imposed on the spousal
benefit. However, under certain conditions, an exemption to GPO may apply. 14 For example,
GPO does not apply if an individual worked the last 60 months under both Social Security and a
Federal, State, or local government pension plan. 15 Military reserve pensions are also exempt
from the GPO provision. 16 If GPO does not apply, SSA employees must record the reason for
the exemption on the MBR. 17 Finally, employees must retain documentation to support the
exemption.18




14
  Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a(b); SSA, POMS, GN 02608.100.A
(September 12, 2012).
15
     Social Security Act § 202(k)(5)(A), 42 U.S.C § 402(k)(5)(A); SSA, POMS, GN 02608.107 (August 11, 2010).
16
     Social Security Act § 202(k)(5)(B)(i), 42 U.S.C. § 402(k)(5)(B)(i); SSA, POMS, GN 02608.700 (May 28, 1996).
17
     SSA, POMS, GN 02608.200.A.4 (February 14, 2012).
18
     SSA, POMS, GN 00301.285.C (July 22, 2010); SSA, POMS, GN 02608.103.D (January 13, 2011).




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                                   5
Pension Information on the Retirement MBR
For all 57 beneficiaries for whom GPO should have been imposed, we found that SSA had
obtained and recorded the pension information on their retirement MBRs. This consisted of
46 beneficiaries who provided pension information when they applied for retirement benefits and
10 who reported the pension information when they filed an application for spousal benefits.
SSA later received a pension notification from the remaining beneficiary’s former employer.
While SSA properly reduced the retirement benefits according to WEP, it did not impose GPO
on the spousal benefits, and no GPO exemptions applied. Finally, we found that SSA had not
prevented or detected these errors because it had not implemented controls to identify
discrepancies in pension information on the MBRs of retirement and spousal records for dually
entitled beneficiaries.

For example, a beneficiary filed for widower benefits in June 2009 but did not report he was
receiving a pension. In August 2010, he became entitled to retirement benefits and stated he had
been receiving a $2,400 monthly pension since August 2000. SSA correctly imposed WEP for
the retirement benefit but did not impose GPO and incorrectly paid him the $792 full widower
benefit. As a result, SSA overpaid the beneficiary $33,407 from June 2009 through August
2012.

GPO Exemptions Not Recorded on the MBR
We found 108 beneficiaries were exempt from GPO. However, SSA employees did not record
the reason for the exemption on the MBR, as required. 19 For example, a beneficiary receiving a
non-covered State pension worked the last 60 months under Social Security. As a result, the
spousal benefits were exempt from GPO. SSA correctly granted the exemption but did not
record it on the MBR.

SSA Actions in Response to Our Prior Audit
In our 2008 audit, 20 we reported that SSA needed to improve its controls to ensure it properly
imposed WEP and GPO for dually entitled beneficiaries. Specifically, in our 2 random samples
of 200 beneficiaries, we identified 11 who were overpaid because SSA did not impose GPO and
10 who were overpaid because SSA did not apply WEP. We provided these 21 cases to SSA for
corrective action. SSA subsequently established overpayments totaling $260,112 for nine
beneficiaries, did not impose WEP or GPO for seven beneficiaries because “administrative




19
     SSA, POMS, GN 02608.103.D (January 13, 2011); SSA, POMS, GN 02608.200.B.2 (February 14, 2012).
20
  SSA OIG, Dually Entitled Beneficiaries who are Subject to Government Pension Offset and the Windfall
Elimination Provision (A-09-07-27010), September 10, 2008.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                         6
finality” 21 applied and determined four beneficiaries were exempt from WEP or GPO. Finally,
we found no evidence that SSA took action for the remaining one beneficiary.

Based on our 2008 sample results, we estimated that SSA overpaid 8,500 beneficiaries
$269.8 million because it did not properly apply WEP and overpaid 8,460 beneficiaries
$184.8 million because it did not properly impose GPO. Finally, we estimated that unless SSA
took appropriate action for these populations of beneficiaries it would pay about $53.2 million in
WEP and GPO overpayments, annually. During our current audit, we found that SSA had not
taken action for the population of beneficiaries identified in our 2008 audit. SSA generally
agreed that corrective action was necessary; however, it stated that the best approach would be to
establish a computer match between State/local pension information and SSA records. SSA also
stated this match was not possible because of limited systems resources and the issuance of a
reminder to employees would help improve controls.

Since SSA did not take corrective action for the population of overpaid beneficiaries identified in
our prior audit, we estimate these beneficiaries have been overpaid an additional $181.6 million
in benefits because SSA had not imposed WEP and GPO (see Appendix B).

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve its controls to ensure it properly imposes WEP and GPO for dually
entitled beneficiaries. Our 2 random samples of 200 beneficiaries found 104 were overpaid
because SSA did not impose WEP or GPO. As a result, we estimate SSA overpaid
2,046 beneficiaries $19.2 million in retirement benefits because it did not apply WEP and
overpaid 1,662 beneficiaries $14.6 million in spousal benefits because it did not impose GPO.
Unless SSA takes action to identify and correct these payment errors, we estimate it will pay
approximately $12.7 million, annually, in overpayments. Finally, since our 2008 audit, SSA has
overpaid an additional $181.6 million to the population of beneficiaries identified in our
2008 audit because it had not taken action to impose WEP and GPO as we previously
recommended (see Appendix B).

We recommend that SSA:

1. Establish overpayments or record a WEP or GPO exemption for the 104 beneficiaries
   identified by our audit.

2. Determine whether there is a cost-effective method to identify and correct the population of
   overpaid dually entitled beneficiaries in current pay whose benefits should be reduced for
   WEP or GPO.



21
  Generally, administrative finality prevents SSA from correcting payment errors if more than 4 years has passed
since SSA’s initial decision to pay benefits and the imposition of WEP or GPO would be unfavorable to the
beneficiary. SSA, POMS, GN 04030.090 (August 14, 2007) GN 04030.100 (August 14, 2007).




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                                   7
3. Identify and if appropriate, implement controls to prevent and resolve pension discrepancies
   recorded on the MBRs of dually entitled beneficiaries.

4. Remind employees to review both the WEP and GPO provisions when they receive pension
   information for dually entitled beneficiaries.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                  8
                                       APPENDICES




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)
Appendix A – SCOPE AND METHODOLOGY
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained two data extracts. The data extract consisted of 8,705 dually entitled beneficiaries who
had Government Pension Offset (GPO) data recorded on their spousal or surviving spousal
benefit but no Windfall Elimination Provision (WEP) imposed on their retirement benefit. The
second data extract consisted of 5,830 beneficiaries who had WEP data recorded on their
retirement benefit but no GPO on their spousal benefit. From these populations, we selected
2 random samples of 200 beneficiaries for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, U.S. Code and Code of Federal
    Regulations as well as SSA’s Program Operations Manual System;

•   interviewed appropriate SSA staff regarding systems and controls;

•   reviewed prior audit reports pertaining to WEP and GPO;

•   obtained necessary files from the MBR, Detailed Earning Query, Payment History Update
    System, Modernized Claims System, and Modernized Development Worksheet; and

•   reviewed SSA’s paperless system, Shared Process System, and Non Disability Repository for
    Evidentiary Documents for supporting documentation.

We determined whether the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data. These tests
allowed us to assess the reliability of the data and achieve our audit objectives.

We performed our work in Richmond, California, between February and August 2012. The
entities reviewed were the Offices of Operations and Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)               A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained two data extracts from the Master Beneficiary Record (MBR). The data extracts
consisted of dually entitled beneficiaries who had

1. Government Pension Offset (GPO) imposed on their spousal benefit but no Windfall
   Elimination Provision (WEP) imposed on their retirement benefit and

2. WEP imposed on their retirement benefit but no GPO on their spousal benefit.

GPO and No WEP
We refined this population to include only those beneficiaries who had an initial entitlement date
for spousal benefits on April 2007 or later with GPO imposed and were entitled to a retirement
benefit with no indication of WEP. This resulted in a population of 8,705 beneficiaries. From
this population, we randomly selected a sample of 200 beneficiaries for review. For each
beneficiary in our sample, we determined whether the Social Security Administration (SSA)
properly applied WEP to the retirement benefits by reviewing information from the MBR,
Master Earnings File, Modernized Claims System, and Modernized Development Worksheet. In
addition, we reviewed SSA’s Paperless System, Shared Process System, and Non-Disability
Repository for Evidentiary Documents.

Of the 200 beneficiaries in our sample, SSA overpaid $441,136 to 47 beneficiaries. This
occurred because their retirement benefits should have been subject to WEP. Projecting these
results to our population of 8,705 beneficiaries, we estimate that SSA overpaid about
$19.2 million to 2,046 beneficiaries. Additionally, we identified 91 beneficiaries who were
exempt from WEP but did not have the exemption recorded on the MBR. Projecting these
results to our population, we estimate that SSA did not record an exemption on the MBR for
3,961 beneficiaries.

The following tables provide the details of our sample results and statistical projections.

                             Table B–1: Population and Sample Size
                                    Description                  Number
                           Population Size                          8,705
                           Sample Size                                200




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)               B-1
                                 Table B–2: WEP Payment Errors
                         Description                      Number                 Amount
                Sample Results                                      47               $441,136
                Point Estimate                                   2,046            $19,200,423
                Projection - Lower Limit                         1,627            $14,858,673
                Projection - Upper Limit                         2,515            $23,542,173
                        Note: All statistical projections are at the 90-percent confidence level.

                     Table B–3: WEP Exemptions Not Recorded on MBR
                                  Description                                Number
                    Sample Results                                                       91
                    Point Estimate                                                    3,961
                    Projection - Lower Limit                                          3,448
                    Projection - Upper Limit                                          4,482
                    Note: All statistical projections are at the 90-percent confidence level.

To estimate the annual amount of overpayments that would occur if SSA does not take action to
identify and correct the WEP payment errors, we used our population estimates and the average
overpayment amount in 2011 for our sampled beneficiaries. Using this methodology, we
estimate that SSA will overpay about $5.7 million ($2,786 x 2,046 = $5,700,156) in retirement
benefits annually until it takes corrective action.

WEP and No GPO
We refined this population to include beneficiaries whose initial date of entitlement to retirement
was April 2007 or later with WEP imposed and who were entitled to a spousal benefit. This
resulted in a population of 5,830 beneficiaries. From this population, we randomly selected a
sample of 200 beneficiaries for review. For each beneficiary in our sample, we determined
whether SSA properly imposed GPO to the spousal benefit by reviewing information from the
MBR, Master Earnings File, Modernized Claims System, and Modernized Development
Worksheet. In addition, we reviewed SSA’s Paperless System, Shared Process System, and
Non-Disability Repository for Evidentiary Documents.

Of the 200 beneficiaries in our sample, SSA overpaid $501,592 to 57 beneficiaries. This
occurred because their spousal benefits should have been subject to GPO. Projecting these
results to our population of 5,830 beneficiaries, we estimate that SSA overpaid about
$14.6 million to 1,662 beneficiaries. Additionally, we identified 108 beneficiaries who were
exempt from GPO but did not have an exemption recorded on the MBR. Projecting these results
to our population, we estimate that SSA did not record an exemption on the MBR for
3,148 beneficiaries. The following tables provide the details of our sample results and statistical
projections.



Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                    B-2
                               Table B–4: Population and Sample Size
                             Description                                  Number
                             Population Size                                5,830
                             Sample Size                                      200

                                   Table B–5: GPO Payment Errors
                 Description                                  Number                   Amount
                 Sample Results                                    57                 $501,592
                 Point Estimate                                 1,662              $14,621,404
                 Projection - Lower Limit                       1,362               $9,975,073
                 Projection - Upper Limit                       1,989              $19,267,735
                     Note: All statistical projections are at the 90-percent confidence level.

                       Table B–6: GPO Exemptions Not Recorded on MBR
                     Description                                                   Number
                     Sample Results                                                    108
                     Point Estimate                                                  3,148
                     Projection - Lower Limit                                        2,801
                     Projection - Upper Limit                                        3,490
                     Note: All statistical projections are at the 90-percent confidence level.

To estimate the annual amount of overpayments that would occur if SSA does not take action to
identify and correct the GPO payment errors, we used our population estimates and the average
overpayment amount in 2011 for our sampled beneficiaries. Using this methodology, we
estimate that SSA will overpay about $7 million ($4,183 x 1,662 = $6,952,146) in spousal
benefits annually until it takes corrective action.

Additional Overpayments Since 2008 Audit
In our 2008 audit, 1 we estimated that unless SSA took corrective action, it would pay about
$53.2 million in WEP and GPO overpayments annually for the beneficiaries we identified in our
population. To estimate the additional WEP and GPO overpayments for the beneficiaries
identified in our 2008 audit, we randomly selected 2 samples of 50 from each population for
review. For each beneficiary in our sample, we determined whether SSA had taken action to
impose WEP or GPO and whether the beneficiary is deceased.



1
 SSA OIG, Dually Entitled Beneficiaries who are Subject to Government Pension Offset and the Windfall
Elimination Provision (A-09-07-27010), September 10, 2008.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                        B-3
We found that SSA had not taken corrective actions for any of the beneficiaries in our samples.
However, we determined that 14 beneficiaries with WEP overpayments and 3 with GPO
overpayments had died after December 31, 2007. Therefore, we reduced the estimated annual
overpayment of $53.2 million by $7.8 million. We then multiplied the resulting annual
overpayment of $45.4 million by 4 years (September 2008 through August 2012). The following
table provides the details of our estimate of additional overpayments for the population of
beneficiaries identified in our 2008 audit.

                     Table B–7: Estimate of Additional Overpayments for
                            Beneficiaries Identified in 2008 Audit
                                                      WEP          GPO
                 Description                                                             Total
                                                  Overpayments Overpayments
Annual estimate from 2008 audit                     $20,986,500  $32,232,600            $53,219,100
Percentage of beneficiaries now deceased                   28%           6%                    N/A
Less: Overpayments for deceased
beneficiaries                                          5,876,220           1,933,956      7,810,176
Subtotal                                              15,110,280          30,298,644     45,408,924
Number of years since 2008 audit                               4                   4              4
TOTAL                                                $60,441,120       $121,194,576    $181,635,696




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                 B-4
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      January 17, 2013                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Dually Entitled Beneficiaries Who Are Subject to
           the Windfall Elimination Provision and Government Pension Offset” (A-09-12-11210)—
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)                 C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“DUALLY ENTITLED BENEFICIARIES WHO ARE SUBJECT TO THE WINDFALL
ELIMINATION PROVISION AND GOVERNMENT PENSION OFFSET”
(A-09-12-11210)


Recommendation 1

Establish overpayments or record a WEP or GPO exemption for the 104 beneficiaries identified
by our audit.

Response

We agree.

Recommendation 2

Determine whether there is a cost-effective method to identify and correct the population of
overpaid dually entitled beneficiaries in current pay who benefits should be reduced for WEP or
GPO.

Response

We agree.

Recommendation 3

Identify and if appropriate, implement controls to prevent and resolve pension discrepancies
recorded on the MBRs of dually entitled beneficiaries.

Response

We agree.

Recommendation 4

Remind employees to review both the WEP and GPO provisions when they receive pension
information for dually entitled beneficiaries.

Response

We agree.




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)               C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

Leticia Lew, Program Analyst




Dually Entitled Beneficiaries Who Are Subject to the WEP and GPO (A-09-12-11210)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
